<html>
<title> - THE IMPORTANCE OF ACCURATE CENSUS DATA TO SMALL BUSINESS FORMATION AND GROWTH</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


THE IMPORTANCE OF ACCURATE CENSUS DATA TO SMALL BUSINESS FORMATION AND 
                                 GROWTH

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JUNE 20, 2019

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 116-029
            Available via the GPO Website: www.govinfo.gov
            
            
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-716                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4a3a250a293f393e222f263a6429252764">[email&#160;protected]</a>                  
            
            
            
            
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                         ABBY FINKENAUER, Iowa
                          JARED GOLDEN, Maine
                          ANDY KIM, New Jersey
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                          JUDY CHU, California
                           MARC VEASEY, Texas
                       DWIGHT EVANS, Pennsylvania
                        BRAD SCHNEIDER, Illinois
                      ADRIANO ESPAILLAT, New York
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                         ANGIE CRAIG, Minnesota
                   STEVE CHABOT, Ohio, Ranking Member
   AUMUA AMATA COLEMAN RADEWAGEN, American Samoa, Vice Ranking Member
                        TRENT KELLY, Mississippi
                          TROY BALDERSON, Ohio
                          KEVIN HERN, Oklahoma
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        TIM BURCHETT, Tennessee
                          ROSS SPANO, Florida
                        JOHN JOYCE, Pennsylvania

                Adam Minehardt, Majority Staff Director
     Melissa Jung, Majority Deputy Staff Director and Chief Counsel
                   Kevin Fitzpatrick, Staff Director
                            
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Andy Kim....................................................     1
Hon. Kevin Hern..................................................     3

                               WITNESSES

Mr. Darrin Conroy, Library Director, New York Small Business 
  Development Center, Albany, NY, testifying on behalf of the New 
  York Small Business Development Center.........................     5
Mr. James Whittier Parker, President, Riverview Studios, 
  Bordentown, NJ, testifying on behalf of the New Jersey Main 
  Street Alliance................................................     6
Mr. Jonathan Weinhagen, President and CEO, Minneapolis Regional 
  Chamber of Commerce, Minneapolis, MN...........................     7
Ms. Jill Dietz, Regional Center Director Statewide Services, 
  Oklahoma Small Business Development Centers, Langston 
  University Tulsa Campus, Tulsa, OK.............................     9

                                APPENDIX

Prepared Statements:
    Mr. Darrin Conroy, Library Director, New York Small Business 
      Development Center, Albany, NY, testifying on behalf of the 
      New York Small Business Development Center.................    23
    Mr. James Whittier Parker, President, Riverview Studios, 
      Bordentown, NJ, testifying on behalf of the New Jersey Main 
      Street Alliance............................................    26
    Mr. Jonathan Weinhagen, President and CEO, Minneapolis 
      Regional Chamber of Commerce, Minneapolis, MN..............    28
    Ms. Jill Dietz, Regional Center Director Statewide Services, 
      Oklahoma Small Business Development Centers, Langston 
      University Tulsa Campus, Tulsa, OK.........................    30
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    Business for the 2020 Census.................................    35

 
THE IMPORTANCE OF ACCURATE CENSUS DATA TO SMALL BUSINESS FORMATION AND 
                                 GROWTH

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                  House of Representatives,
               Committee on Small Business,
  Subcommittee on Economic Growth, Tax and Capital 
                                            Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Andy Kim 
[chairman of the Committee] presiding.
    Present: Representatives Kim, Davids, Espaillat, Delgado, 
Hern, Stauber, and Spano.
    Chairman KIM. Good morning. The Subcommittee will come to 
order.
    I want to thank everyone for joining us this morning, and I 
want to especially thank the witnesses. All of you have 
traveled across the country to be with us here today. I really 
appreciate it. It means a lot to all of us to be able to make 
sure we are hearing directly from you.
    One of our most important goals of this Subcommittee is to 
assure that small businesses are equipped with the tools they 
need to grow, create new jobs, and generate that wealth in 
their communities that is so badly needed right now.
    No matter where businesses decide to set up shop, whether 
it is in the middle of a large city or a Main Street in a rural 
town, we know that every single business needs a plan. And 
determining that location or finding the workers with the 
proper skills or having that accurate information about the 
members of the community is so vitally important for 
entrepreneurs and small business owners.
    Luckily, our founding fathers foresaw the need for an 
accurate snapshot of the American people, so every 10 years 
since our country's inception the Constitution mandates that we 
take a proper count of all current residents of the United 
States. The Federal Government uses this information to 
determine where to allocate billions of dollars in resources 
through Federal and state programs, where to build 
infrastructure, provide public health services, and allocate 
resources to make our communities better prepared for 
disasters.
    In that vein, the SBA uses this information to determine 
where they might want to invest more resources based on 
demographic changes and population shifts. An accurate census 
is necessary to ensure we are allocating resources efficiently 
since these funds have an impact on the economic developments 
in our town and cities.
    Now, the use of the census information is not just 
important for the government, it extends into the private 
sector as well, and the census is an invaluable tool for those 
looking to start or grow a business by providing the most 
affordable and accessible source of information about the 
demographics of our country and the growth potential of the 
American economy.
    Small firms have come to rely on this data to make 
important decisions that can make or break their bottom line, 
and entrepreneurs and small firms use this information to 
better assess customer demands, identify new markets, and where 
to make investments.
    Now, as we all know, starting or running a business is not 
an easy thing to do, but one of the biggest reasons small 
business fail is because they often do not have the access to 
the affordable, reliable information that their larger 
competitors have. You would not want to start a daycare in a 
town where the median age is 63, but you might want to open a 
second restaurant if you know that more people are moving to 
your town or a new highway is being built. And to understand 
these market trends, business owners must be able to freely 
access accurate and robust data.
    The census provides that data that is integral to market 
research and to business plan development. Through not only the 
decennial census, but also a variety of other surveys conducted 
monthly, quarterly, and annually, the data provided by the 
Census Bureau helps businesses understand where to start, how 
to market, and who to hire.
    A new tool available through the census compiles all this 
data from these different surveys directly for the purposes of 
informing business owners, and the Census Business Builder, 
among other tools on the census website helps companies access 
this information.
    Through it, entrepreneurs, SBDC counselors, and local 
chambers of commerce can access information to better 
understand community needs. They can measure the potential for 
new markets, where to target advertising dollars, and assess 
labor trends in the areas to determine the workforce available 
for their companies to thrive.
    Now, many of the most important decisions of a company can 
rely direction on the data collected through the census. So for 
the economy to grow and for wealth to continue to be created, 
we must ensure that the count is as accurate as possible. We 
must ensure that the data businesses rely on to make evidence-
based decisions provides the best snapshot of our communities. 
Any mistake in the count next year could create a ripple effect 
through the economy. Small firms and entrepreneurs rely on 
accurate information from the data to make material decisions 
that will help create jobs and spur economic growth.
    That is why today's hearing is so timely and important. We 
can all agree that an accurate count is incredibly important 
for our Nation's small businesses. I look forward to working 
with my colleagues on both sides of the aisle to ensure that 
next year's census provides our businesses with the most 
accurate and robust data.
    Again, I want to thank the witnesses for being here today, 
and I now want to yield to the Ranking Member, Mr. Hern, for 
his opening statement.
    Mr. HERN. Thank you, Mr. Chairman.
    Entrepreneurship is the lifeblood of this Nation, and our 
country has always been known as the ``land of opportunity.'' 
This country thrives on its ability to support and encourage 
people to pursue their passions and strike out on their own, 
and today, there are more than 28 million small businesses in 
the United States driving the economy.
    Starting a small business can be exciting, yet a risky 
proposition. Often an entrepreneur has already identified an 
interest and has turned that interest into an idea. However, 
this passion must be balanced with a substantial dose of 
reality. There are certain steps a potential small business 
owner can take in order to lay a solid foundation and increase 
their chances of success. For instance, an entrepreneur will 
want to understand who their target customer might be, who 
their competitors are, and if there is an actual need for their 
anticipated product or service. Answering these threshold 
questions through market research forms the groundwork of a 
successful business plan and may be critical to additional 
steps along the way such as obtaining financing from a bank.
    So how does this relate to the census? This crucial 
information can be obtained through data collected by the 
census. While the Census Bureau may be most well-known for the 
decennial census, this is only one of the many surveys 
administered by the bureau and its partner agencies.
    These surveys vary in length and in type of information 
sought, collecting a wide variety of statistics such as 
demographic, labor, business, economic, and socioeconomic data. 
It can capture facts from the thousand foot view down to the 
granular details about a specific community or locale. This 
information forms the bedrock of data accessed and applied by 
consumers across the Nation for various purposes.
    Nearly everyone uses census data in some form or another, 
including all levels of government, academics, researchers, 
industry organizations, the public, and businesses of all 
sizes.
    However, being a small business owner myself for the past 
34 years, I can tell you that it seems like a questionable use 
of time and resources to have to answer these long and detailed 
surveys when the return on investment is not always evident. 
Sometimes it feels like another burdensome requirement levied 
by the Federal Government which will not result in any tangible 
outcome or result. I understand this feeling. I have been there 
and I sympathizes.
    I hope through the testimony of our witnesses we can 
achieve a greater understanding of how widely census data is 
used, who uses it, and fully grasp the importance of this data 
in the daily operations of small businesses and by extension to 
the broader U.S. economy. In other words, let's make that the 
juice is worth the squeeze.
    Thank you, Mr. Chairman. I yield back.
    Chairman KIM. Thank you, Mr. Hern. The gentleman yields 
back.
    And if Committee members have an opening statement, we 
would ask that they be submitted for the record.
    I would like just to take a minute to explain the timing 
rules. Each witness will get 5 minutes to testify and members 
get 5 minutes each for questioning. There is a lighting system 
to assist you. The green light comes on when you begin, yellow 
means there is 1 minute remaining, and red comes on when you 
are out of time. And we ask that you stay within the timeframe 
to the best of your abilities.
    Now I would like to introduce our witnesses for today's 
panel.
    Our first witness is Mr. Darrin Conroy, who has been with 
the New York Small Business Development Center since 1993 and 
has been its library director since 2002. Mr. Conroy's duties 
include research services, resource acquisitions, and outreach 
and education services. He has an undergraduate degree from 
Sienna College and a masters of library science from the 
University of Albany. Welcome.
    Our second witness is Mr. Jim Parker, a small business 
owner from my district. He is the founder and owner of 
Riverview Studios and a 42-year veteran filmmaker. He has 
produced numerous broadcast programs for public television and 
during his career he has produced hundreds of multilingual 
documentary programs for corporate and nonprofit clients. Mr. 
Parker thank you for being here today.
    Our third witness is Mr. Jonathan Weinhagen, president and 
CEO of the Minneapolis Regional Chamber of Commerce. He was 
elected to the Mounds View School Board in 2014, and currently 
serves as Chair. He a member of the Economic Development 
Commission in the city of Shoreview, past president of the 
Mounds View School's Education Foundation, and is engaged in 
various other nonprofit board and Committee roles. Thank you 
for being here today.
    I would like to now yield to the Ranking Member to 
introduce our final witness.
    Mr. HERN. Thank you, Mr. Chairman.
    Our final witness is Ms. Jill Dietz. She serves as the 
regional center director for the Oklahoma Small Business 
Development Centers at Langston University in Tulsa. In her 
role as a supervisor, she oversees business advisors in 
Woodward, Edmond, Oklahoma City, and Tulsa, and has been with 
OKSBDC for 6 years. Her dedication to assisting small business 
is evident in her ranking as a top performer in the state 
network for the past 3 years and her selection as OKSBDC state 
star in 2017. As a business advisor, Ms. Dietz provides 
business management and technical assistance to small business 
clients, including assessing capital needs, evaluating 
strengths and weaknesses, making cash flow projections and 
development marketing strategies based on industry research and 
consumer and spending data.
    Thank you for being here today. I look forward to hearing 
your testimony, and I yield back.
    Chairman KIM. Thank you. The gentleman yields back.
    And welcome. We are excited to have you here today.
    So why do we not just jump right in with the witnesses? Mr. 
Conroy, we will turn it over to you. You are recognized for 5 
minutes.


    STATEMENTS DARRIN CONROY, LIBRARY DIRECTOR, NEW YORK SMALL 
BUSINESS DEVELOPMENT CENTER; JAMES WHITTIER PARKER, PRESIDENT, 
RIVERVIEW STUDIOS; JONATHAN WEINHAGEN, PRESIDENT AND CEO, 
MINNEAPOLIS REGIONAL CHAMBER OF COMMERCE; JILL DIETZ, REGIONAL 
CENTER DIRECTOR STATEWIDE SERVICES, OKLAHOMA SMALL BUSINESS 
DEVELOPMENT CENTERS, LANGSTON UNIVERSITY TULSA CAMPUS

                   STATEMENT OF DARRIN CONROY

    Mr. CONROY. Chairman King--Chairman Kim. Excuse me, my boss 
was named King. Ranking Member Hern, thank you for this 
opportunity to speak to you today.
    You must all be familiar with the SBDC program. The New 
York program began in 1984. We now have 22 centers across the 
state, as well as numerous outreach centers. They provide an 
array of services pro bono to the small business community in 
New York through three core activities: one-on-one business 
advisement, business training, and research. On average, New 
York SBDC advisors provide counseling to nearly 20,000 small 
businesses every year.
    I am here on behalf of the research component. New York 
created its library in 1991, in a response to a need by SBDC 
clients for a centralized information center. Since its 
inception, it has been a collective of professionally trained 
librarians, such as myself, who provide value-added research to 
any New York client.
    In our history, we have received over 64,000 requests for 
information on numerous topics. Business owners have an 
insatiable need for information, the more current and the more 
accurate the better.
    And they really like demographic data. Demographic data is 
something that ever business owner needs, whether it is a 
startup or a long-term success. Such data impact where a store 
is located, what types of marketing should be employed, or 
whether it should be started at all.
    One out of every five requests we handle includes the need 
for demographic data. These are answered primarily with either 
fee-based databases that use Census data for their own 
modeling, or any of the 100-plus Census surveys. And as you 
mentioned before, the Business Builder tool, which was rolled 
out in 2015 has proven to be a very easy-to-use interface and 
has proven quite popular in the New York State program to use 
with their clients.
    Like much of our research, answers to these requests are 
incorporated into a client's business plan. The presence of 
current Census data in a business plan is given immediate 
credibility by investors who read these plans.
    Businesses can also have a say in the creation of data via 
participation in the Economic Census. As Mr. Hern must know, 
not every business is chosen to do that but those that do, it 
is a burden. But it is something that our library and our 
program have reminded clients to complete the survey and mail 
it back if only for the fact that the better the response rate, 
the more accurate the data. And the more accurate the data, the 
better the chances of sound decision-making by policymakers, 
economic development agencies, and the business owners 
themselves.
    So our efforts in this area are analogous to those put 
forth by the American Library Association. According to them, 
per the FCC, more than 24 million Americans do not have high-
speed internet access at home. Because the 2020 Census will be 
distributed primarily online, this lack of access could dampen 
response rates. So in response to that, ALA has encouraged 
public libraries to tout themselves as places that offer no-fee 
broadband access.
    The 28-year history of my library for New York is filled 
with stories of clients who have leveraged accurate and up-to-
date information into funding for their businesses, or as a 
factor in deciding to expand operations, or to assist in 
deciding where to export their products, or to determine where 
to target their marketing efforts, and numerous other ways.
    A small business owner faces constant challenges. New York 
SBDC advisors frequently say that their library saves their 
clients valuable time by navigating the sea of information to 
find the answers they need. In turn, we owe them the 
responsibility of accessing only those resources whose accuracy 
and currency are beyond reproach. And I hope I have conveyed 
somewhat from our perspective the importance of Census 
materials to the small business community in the state of New 
York. Thank you for your time.
    Chairman KIM. Thank you. Appreciate the testimony there.
    We are going to turn it over to you, Mr. Parker. You are 
recognized now for 5 minutes. Over to you.

               STATEMENT OF JAMES WHITTIER PARKER

    Mr. PARKER. Thank you, Chairman Kim, and Ranking Member Mr. 
Hern. I appreciate the invitation and the opportunity to be 
here and make a presentation.
    I guess I am an entrepreneur. I have been self-employed and 
I own a business that I have operated since 1976, so that makes 
it 42, going on 43 years. We are an award-winning, digital 
media production company, so that means I produce films for 
businesses and for broadcast.
    We do 12 to 15 major programs per year on average and a 
number of smaller ones. I have five employees typically. Right 
at the moment I have four. And over the course of the year I 
may hire 15 to 20 freelance employees. I also am on the Board 
of Trustees of the Trenton Area Soup Kitchen where I have 
served for 15 years, 6 years as board Chair. And it is actually 
a small business, too, because we serve over 300,000 meals per 
year in Trenton, Princeton, Hamilton, Hightstown, Bordentown, 
from 13 different satellite sites. I sometimes feel like I 
should have received my MBA for the experience I have had as 
board Chair there.
    But I am primarily here on behalf of the New Jersey Main 
Street Alliance. I am a member of the Steering Committee. New 
Jersey Main Street Alliance is an organization, a coalition of 
over 1,600 independently owned businesses in New Jersey, and we 
are here to ensure that these businesses have a voice in public 
policy matters that are important to the community.
    Bordentown City, where I operate, is a community of just 
under 4,000 people. I looked at the census data on the way in. 
It was 3,900 and something based upon the last census in 2010. 
The Main Street in Bordentown is a thriving sea of local, 
primarily family-owned businesses, of which mine is included. I 
am told I am one of only two independent media television 
production companies in the state. That sounds interesting. I 
have to check that out.
    But it's access, for these businesses to thrive, including 
mine, access to all of the services--to healthcare, to 
infrastructure, to good transportation and public 
transportation, access to capital and credit--many small 
businesses owners have a more difficult time gaining access to 
credit than larger competitors who are better positioned. We 
have limited resources and we are working with a smaller staff. 
So, you know, having good information is really key.
    And all of this is impacted by accurate census data, by 
accurate census counts because, for example, I know that New 
Jersey receives roughly $22 billion per year in annual Federal 
funds that are based upon census information.
    So having good data is important to us. We need to maintain 
and improve our infrastructure, keep our highways and our 
infrastructure safe, and to ensure that funds are available for 
public education for public support and public programs that 
are critical in New Jersey.
    The takeaway I think is that the census is not a political 
football. Accuracy matters. We need a full count. We need full 
funding in New Jersey, so we need the census to be fully 
funded. And we need for people to be able to respond 
comfortably and not be afraid to respond. We are concerned that 
so many people fail to respond to the census.
    So in closing, New Jersey is a state where extreme wealth 
and punishing poverty exists side by side. An undercount we 
feel would exacerbate existing racial and socioeconomic 
inequalities. I think the main objective needs to remain to 
help provide the opportunities for people to break out of the 
cycle of poverty.
    When communities thrive and when people have education and 
access to health care, and when people have money in their 
pockets, everyone benefits, my business included. Thank you.
    Chairman KIM. Thank you, Mr. Parker. I appreciate your 
testimony.
    We are going to move on to Mr. Weinhagen. Over to you for 5 
minutes.

                STATEMENT OF JONATHAN WEINHAGEN

    Mr. WEINHAGEN. Chairman Kim, thank you for inviting me here 
today. Ranking Member Hern and members of the Committee, I 
appreciate the opportunity to spend some time with you to talk 
about the importance of the 2020 Census for small businesses.
    I also want to thank the team from ReadyNation for their 
help in making it possible for me to appear before you today.
    My name is Jonathan Weinhagen. I am president and CEO of 
the Minneapolis Reginal Chamber of Commerce. I was appointed by 
Governor Mark Dayton and held over by newly-elected Governor 
Tim Walz to Co-Chair our state's Complete Count Committee for 
the 2020 Census.
    I have also joined the Business for 2020 Census Task Force, 
which is an initiative of ReadyNation, to work alongside other 
business leaders across the country to help encourage residents 
to participate in the census next year and equip businesses to 
participate as well.
    As you have noted, the United States Constitution mandates 
that the government count every person in American every 10 
years, and businesses rely on the accuracy of that data for 
three main reasons.
    First, census data is used to direct more than $800 in 
taxpayer dollars each year to Federal programs that support 
small businesses, with everything from transportation that 
helps move their products, to developing their work force.
    Second, the count is used to determine political 
representation at the local, state, and national levels, 
ensuring that small business interests are represented in 
government decision-making.
    And finally, and what I will focus on today, the census is 
a powerful foundation upon which small businesses make their 
decisions each and every day. And I should know. Prior to my 
work advocating on behalf of the business committee, I spent 
nearly a decade leading in my family's fourth generation auto 
repair firm in St. Paul. I still serve in an advisory role 
today providing that you can leave the family business but it 
will not leave you.
    Many small business owners like my dad and the nearly 80 
percent of the members that I represent operate on razor-thin 
margins and rely on accurate census data to inform their 
decision-making. Opening a store in the best location that is 
accessible to their customers, offering the products and 
services that residents living and working nearby want and need 
in their daily lives, or importantly, investing and locating a 
new office or facility close to neighborhoods with skilled 
workers.
    All of these decisions are based in part on information 
that only comes from the census. Oftentimes, small business 
owners are leveraging census information without even knowing 
it. Even when a company is using a private commercial data 
base, that information would require a benchmark to ensure that 
it is accurate. Because the census provides the most accurate 
and robust snapshot of everyone living in the United States, it 
is the best available benchmark we have which no other data 
source produces.
    Census data is also the foundation for a wide-range of 
economic analyses from the unemployment rate to real estate 
figures. These indicators may encourage an entrepreneur to take 
the next step or cause them to wait to start a new tech firm or 
open a new restaurant. Essentially, census data is big data for 
small businesses, and it is extremely important that the census 
be as accurate as possible.
    If the 2020 Census count is inaccurate, small businesses 
and our communities would be negatively impacted over the 
course of the next 10 years. An inaccurate census could result 
in a domino effect that may stifle local economies if small 
businesses decide against expanding or hiring more employees, 
hurt local communities if fewer investments are made by small 
businesses and neighborhoods with high concentrations of people 
that are considered hard to count.
    I can offer an example. I am working right now on a project 
with Houston White in North Minneapolis, which is a large 
African-American population. Houston is an entrepreneur who 
owns a barber shop and he has a vision for a community-led 
redevelopment of his neighborhood. Camdentown has the potential 
to be the model for community-driven economic development and 
redevelopment, but only if there is accurate data to support 
the level of investment necessary to realize that vision.
    And last, they could deprive Minnesota of public funding 
that grows our economy. Every year Minnesota receives roughly 
$15 billion in Federal funding for programs that help build 
roads, strengthen schools, and contribute to a healthy work 
force. This funding is allocated based on census data.
    Simply put, Mr. Chairman and members, a robust 2020 Census 
is good for business, good for the City of Minneapolis, and 
good for our national economy.
    It is why business leaders across the Nation understand the 
need for an accurate census. I have brought with me today and 
distributed a letter from over 75 business leaders representing 
small businesses and large enterprises that urges Congress to 
support adequate funding for the Census and to ensure an 
accurate county.
    On behalf of my family of small business owners, my 
members, the Minnesota Complete Count Commission and 
ReadyNation, Chairman Kim, Ranking Member Hern, members of the 
Committee, I thank you and appreciate your leadership in 
focusing on this critical issue. I am certainly happy to answer 
any questions.
    Chairman KIM. Thank you. I appreciate your testimony.
    Ms. Dietz, we are going to turn it over to you for 5 
minutes.

                    STATEMENT OF JILL DIETZ

    Ms. DIETZ. Thank you, Mr. Kim, and Mr. Hern, for letting me 
be here today. I appreciate it. It is a privilege.
    I, too, am a business owner in Mr. Hern's district for 35 
years, so we probably started at the same time. I was in 
restaurants, too, so.
    Mr. HERN. Back when we were 10.
    Ms. DIETZ. Yes. Thank you. I appreciate that. Very 
politically correct of you. Thank you.
    So it is my privilege to work for the OKSBDC to give back 
to my community because I can walk beside these people, these 
small businesses.
    The OKSBDC, a partner with the Small Business 
Administration, provides that confidential, high quality, no 
cost entrepreneurial and small business advising to help people 
start new businesses and grow their existing ones.
    I am excited to share today how important the U.S. Census 
is to my organization as we strive to assist those businesses 
through the many services offered by the OKSBDC. I cannot 
stress enough how much my organization relies on that 
demographic data. Whether we are helping a small business 
decide on a brick and mortar location or helping develop a 
marketing plan to reach those new customers, we routinely use 
this census information. The accuracy of that data provided by 
the census is instrumental in helping the OKSBDC support those 
small businesses.
    Simply put, the quality of this information we use is 
critical to that business success. Often, a small business 
owner will approach me seeking guidance on how their business 
can perform better. During that consultation, we would perform 
a gap analysis determining the difference between the current 
customers and the potential customers. Without accurate census 
data, any gap analysis that we create would paint an incomplete 
and inaccurate picture. With accurate data, we are able to 
identify new locations the business should target, untapped 
audiences, and help create effective marketing strategies.
    Speaking of which, any business striving to be successful 
needs a data-supported marketing strategy. The census provides 
such a wealth of information that it allows me to compare and 
contrast that demographic data so I can help create those 
marketing strategies that will best help my clients. Small 
businesses do not have access to unlimited capital. Every 
single decision has to be purposeful and conscientious. Without 
accurate census data, I would feel less comfortable providing 
marketing guidance.
    Besides marketing, many businesses rely on the accurate 
data to maximize gains and justify spending. Fair market rents, 
insurance planning, asset acquisition, expansion, payroll 
decisions are just a few of those business considerations 
dictated by demographics. I, like every one of my peers, 
endeavor to offer sound advice to those businesses. It is only 
possible because of this data that is provided in the census.
    Of course, the OKSBDC also works with those clients in the 
process of creating new businesses. We use census data and 
demographic analysis to justify and accurately explain their 
valuation, their marketing plan, and their business viability. 
Consecutively, lenders approve those loans based on the 
assumption that the data provided in those business plans are 
from reliable resources.
    Information accuracy matters. A great example involving the 
OKSBDC using census data involves a client in northeastern 
Oklahoma. This month, June 2019, a client with an Army 
xTechSearch submission was asked to provide information to the 
Army about their product's civilian market applications. The 
business was able to respond with certainty because the OKSBDC 
had previously researched industries and demographics to 
determine multiple private sector target buyers.
    Given the extensive scope that census data plays in the 
day-to-day operations of the OKSBDC, it is easy for me to 
argument for the importance of accurate census data. This data 
is necessary for the practices, the procedures, and outcomes of 
the OKSBDC. Small businesses have become reliant upon, and in 
many cases completely dependent upon, the census data for 
numerous operations from business conceptualization all the way 
through growth and expansion.
    Thank you for allowing me to speak today.
    Chairman KIM. Thank you for coming here and speaking to us 
today. Again, I just reiterate it really is our honor to have 
you come from different corners of this country to be able to 
share your thoughts, your wisdom. Certainly on this 
Subcommittee, the Ranking Member and I are doing everything we 
can to make sure that we are hearing voices direct from 
business owners and business leaders, the community, because 
these are the types of voices that we really need to make sure 
are brought up here in Congress and that we are able to hear 
directly from those that are impacted.
    And I think just listening to the four of you speaking, a 
couple of things really stand out. Each and every one of you 
addressing in some capacity the need for the accuracy of the 
census and thinking about that in a couple of different ways. 
First of all, in terms of usefulness of the data to yourselves, 
to other small businesses, to communities, but also, as you 
mentioned, Mr. Parker, the resources that are coming to our 
state and our communities as well as a result of that which are 
helping small businesses in different ways, whether that is on 
health care or infrastructure or other capacities. So thinking 
about this holistically is something that is helpful for me to 
package coming out from your testimonies.
    Just two questions that I want to get to before I turn it 
over to the others on the Committee, and if I have any more I 
will follow up at the end.
    The accuracy of the census and the usefulness of the data, 
I really want to just get a better sense from you just of the 
data, are there particular categories of the data that are 
useful? I know you were talking a lot about the demographic 
side but, you know, if there is anything further you would like 
to add just in terms of what specifically, is helpful, that 
just helps give me an understanding of how it is being utilized 
from your perspective.
    But on top of that, is there certain types of information 
that you wish you had? Are there certain things that if you 
were able to have access to that you feel like would kind of 
expand the amount of information you are getting, the 
usefulness of this? So I just want to open it up in case any of 
the four of you have something to respond to that question.
    Mr. CONROY. I wish for a lot of things. As a librarian, I 
cannot help but be greedy.
    Most of the queries that I get are answered with the 
products that exist now, some of which, however, are spaced out 
quite a ways. The Economic Census in particular does take quite 
a bit of time to compile and then made available at various 
levels of geography.
    Case in point, recently, somebody in the Brooklyn area 
wanted to open up a specialty grocery store and he was just 
asking, ``In my county or in my Census tract'' (which you can 
get away with in Brooklyn because it is so dense) ``what are 
other businesses like mine making? What are their net sales?'' 
So which we argue more often than not, this is data that a 
business owner does not need to reveal as a privately-held 
business. But from a survey perspective, if you have a decent 
sample size you can compile useful data like that. However, 
when you tell them that the most current data available is from 
2012, at least at that level, you see them sort of slump a 
little bit. It is hard to then project from that without making 
some speculation. So I do not know what could possibly be done 
about that, but that is an issue that my people face.
    Chairman KIM. I appreciate it, Mr. Conroy.
    Anyone else want to respond to this one?
    Mr. PARKER. I think from the standpoint of my position with 
the soup kitchen, it is probably more relevant. The demographic 
data helps our organization in planning for services and 
programs that will help people to get back on their feet. One 
of the things the soup kitchen, because it is a large 
organization, we have over 25 full-time employees and the last 
I heard it was something in excess of 3,000 volunteers that 
serve on an annual basis, who come in and serve the meals. But 
because of the nature of the community, one of the challenges 
is providing resources for adult education, for example. People 
that need to get their GED or get back into a place where they 
can earn a living.
    So having demographic information about the population of 
the community helps to plan better and to come up with programs 
that will best suit the needs of the community. Of course, 
financial resources are also important. Whatever funds the 
community does not receive, such as SNAP assistance and things 
like that, it ultimately comes back to fall on shoulders of the 
organizations that are funded through individual donations like 
the soup kitchen to meet those needs. Thank you.
    Mr. WEINHAGEN. Mr. Chairman, very quickly, I would agree 
with Mr. Conroy. When it comes to data for business decision-
making, more is more. But I think when we think about the 
census, the 2020 Census, the demographic information that you 
hit on is really the key aspect that we hear from business 
leaders and owners that is helpful in their decision making. So 
just really emphasize that accurate and complete count being 
the primary and then we can think about augmenting with 
additional types of data.
    Chairman KIM. No, absolutely. And that is well taken. And I 
do appreciate the Ranking Member's comments during his opening 
statement. You know, of course, there is always more and more 
data that we can take and be useful but we have to be mindful 
about what it is that we are putting upon small business owners 
who are already pulled in so many different directions, and 
that is a fine balance that we always need to respect and 
understand.
    One last thing as my time is drawing closed but I just want 
to ask, Mr. Weinhagen, what you just said there at the end 
about, you know, about the accuracy of the census and the focus 
on that, too, I wanted to ask, as you are here representing 
business for the 2020 Census and a coalition of other business 
owners, from your perspective, what role can the business 
community play in encouraging individuals to participate in 
this census and helping us reach that accuracy? I am curious 
from your standpoint if there are things that we can be 
thinking of from a business side to be able to help encourage.
    Mr. WEINHAGEN. Thank you, Mr. Chair.
    Absolutely, there is a role for the business community in 
helping to make sure that we get the greatest turnout and the 
most accurate count in the 2020 Census. We are working to 
distribute and create tool kits for business leaders across the 
state of Minnesota to ensure that they can communicate to their 
employees, that they can communicate to their communities the 
importance of the census. And I think secondarily, there is a 
role for the private sector in helping fund and augment some of 
the local activities around outreach. One of the things that we 
hear most kind of on the ground and in our local communities, 
particularly as we get into greater Minnesota, is reaching 
every corner of every district is really critically important. 
The private sector can play a role in helping, you know, double 
down on the funding that comes from the Federal Government and 
from the states in making sure that we have feet on the ground 
to get everybody counted.
    Chairman KIM. Great. I think that is an area that I would 
love to just stay in touch with you about and others about on 
what it is that we can build out going forward.
    But my time has expired. I am going to turn it over to the 
Ranking Member. Mr. Hern, you are recognized for 5 minutes.
    Mr. HERN. Thank you, Mr. Chairman. Thank the witnesses. 
Thank you all for being here today and sharing your testimony.
    Mr. Conroy, as the Chairman said, I really appreciate your 
statement knowing that there is a burden put on small 
businesses, and the smaller the business, it seems like it is 
almost an impossibility to get done. I was just sitting here 
thinking, it would probably be a great marketing piece to put 
in front of those what this day will be used for. I think you 
would have even a greater participation because it is not just 
the decennial. We have tons of surveys that come out from the 
Department of Labor and Agriculture and everywhere else.
    But along that line, if the census data were not available 
for your use, are there any other resources or source of 
information that could be used to replace this information at 
the same level?
    We can start with Ms. Dietz. And if it is yes or no, or if 
you want to elaborate, that is fine. I am going to try to get 
through a lot of questions here because our goal is to really 
find out from you all how important this is regardless of our 
opinions or what we know, but it is important because 
obviously, this will be information that will go out to the 
public to see and this is important.
    Ms. Dietz, are there any other sources that would replace 
or augment to a better degree what is currently being taken?
    Ms. DIETZ. Not to my knowledge. I would defer to Mr. 
Conroy.
    Mr. WEINHAGEN. Mr. Hern, I think the short answer is no. 
The census is the most expansive set of data that we have 
available to inform decision-making. There is certainly other 
databases and resources available, often in the private realm 
at exhaustive cost. And particularly, we talk about small 
businesses. That can be a limiting factor to providing them 
access to that data.
    Mr. HERN. Okay.
    Mr. CONROY. I am sorry. Were you going to say something?
    Mr. PARKER. I was just going to say I am not aware of 
anything either except as in relation to Federal funds that the 
state receives which are based upon census data. I do not know 
of any other source of information that would help to drive 
that.
    Mr. CONROY. Well, there are private sector databases out 
there. There is a company called Esri based out of California. 
They make a software product called ArcGIS, which is well 
regarded in the GIS field. We have a tool that correlates with 
that. It is a database. But it is my job to take a look at that 
data and you sort of look at the fine print, while you can get 
data that says it represents a population figure say for 2017-
2018, you find that it is modeled on counts from the 2010 
Census. So they are taking that and they are applying their own 
modeling. They are a respected company so their modeling 
techniques are respected but there are other databases out 
there that are not as statistically rigid and I find their use 
actually of Census data to be hazardous. But again, it all 
comes back to the fact that it is based on the 2010. I do not 
mean hazardous. I mean, I am not a statistician by nature. I 
just think that sometimes----
    Mr. HERN. Not as reliable as one would want?
    Mr. CONROY. Right. Well, they just say the population is 
going to grow at 2.2 percent and they will just do that 2.2 
percent for 10 years. Whether that is accurate or not, who can 
say?
    Mr. HERN. So for the record, I think what you are saying 
is, yes, there might be other sources but those sources would 
be based on census data that is being collected.
    Mr. CONROY. They are. They are.
    Mr. HERN. And this is a way to monetize extrapolating data 
and forecasting and----
    Mr. CONROY. These databases do a lot of other things as 
well. They collect data from other countries as well. They do a 
lot of labor data and it is a nice piece of product to have. 
But as Mr. Parker says, and Mr. Weinhagen says, these are not 
cheap. I am fortunate to work for an educational institution 
where I get that pricing level, but if you are a small business 
owner and need that and you have got to shell out $15,000 a 
year, that is an expense that you do not need to make.
    Mr. HERN. So Ms. Dietz, I am going to start going left to 
right again.
    Do any of you all in your respective positions get 
questions asked of you by people seeking to start new 
businesses or expand their businesses that you do not find 
there is any data for? And therefore, you have a feedback 
mechanism where you can go back to the creator, I mean, of 
these censuses and say we need this. In these interim Census 
Bureau, we need this information. We are not getting that.
    I am just going to use an example. Ten years ago a question 
might have been the accessibility of broadband. So as the 
economy evolves, there are going to be questions. We did not 
take a census on 10 years ago, so the interim Census Bureau 
would capture those. Do you get to have that input? Are you 
aware of any direct from the field questions that you could 
roll back up to get those data points collected going forward?
    Ms. DIETZ. I would say the only lacking gaps that I run 
into is that it is not narrow enough so such as Mr. Conroy 
said, a specialty grocery store, to find that to compare apples 
to apples, to make comparisons that are really solid, that you 
believe are concise. So I feel like a lot of the data is not 
narrow enough, and I know that that just creates more red tape 
and more filling out and more time of those censuses. But it is 
valuable.
    Mr. HERN. Mr. Weinhagen?
    Mr. WEINHAGEN. Mr. Hern, I cannot point to a specific 
example. Certainly, there is data that is requested on a daily 
basis that could benefit a company from having access to but 
not a specific example at this time.
    Mr. HERN. Mr. Parker, I am going to roll back because my 
time is expired.
    Going back to your statement about detail, I think that is 
my point is do you have a feedback way of going back up the 
stream and saying we need more detail in these particular 
areas, therefore, we need to survey more? Because sort of the 
thought is if a little data is really, a lot of data is 
awesome. And more data is like outstanding. And at some point 
in time the document is 50 pages long. And some on my side 
would argue that is kind of where it has gotten to. And if it 
is not doing the right thing, can we fix some of those? Yes or 
no? But, I mean, do you have a feedback place where you can 
offer that kind of input that you know of or are you just 
taking what comes down?
    Ms. DIETZ. I am taking what comes down but I have today.
    Mr. HERN. Thank you. Thank you.
    Chairman KIM. Thank you.
    I am going to turn it over to my colleague, Congresswoman 
Sharice Davids. Over to you for 5 minutes.
    Ms. DAVIDS. Thank you, Chairman.
    As we have heard today, accurate census data is incredibly 
important to the work that we do here in Congress, but also to 
the work that you all are doing on the ground. It is because 
the census gathers essential, important information that leads 
to Federal funding, whether it is in research, education, or 
transportation and infrastructure decisions.
    In my conversations with stakeholders in Kansas, which is 
where I am currently a representative from, you know, I have 
talked to folks from chambers of commerce. We have a Greater 
Kansas City Chamber of Commerce, and they have stressed the 
importance of accurate census data to me for properly funding 
workforce initiatives that they have, whether it is workforce 
development training or trying to bridge that gap between the 
workforce we have got and what we think we are going to need.
    So I am wondering if any of you can give us some insight 
into how you have seen census data used to address workforce 
shortages in your communities or I am sure you engage with 
folks all across the country as well.
    Mr. WEINHAGEN. Ms. Davids, I think that is a great 
question. Three hundred thirty three million dollars flows into 
the state of Minnesota for workforce training each year, and it 
is census data that helps us distribute where those dollars are 
allocated district by district, and it allows us to surgically 
target across the state where the greatest need is. So I think 
it is an example of how critical the information that 
demographic information is, where population sheds are, where 
different ethnicities are settling, so we can make sure that we 
are targeting those dollars and being really good stewards of 
those resources to ensure that we are capitalizing and 
upscaling the workers that we need to fuel the continued growth 
of our economy.
    Ms. DAVIDS. Thank you.
    So, oh, go ahead, Mr. Conroy.
    Mr. CONROY. In New York State, excuse me, we have done a 
lot of work, since most of our centers are located in centers 
of higher education, a lot of those schools have come to our 
centers to see how they could perhaps restructure their 
curricula based on workforce labor patterns in their area and 
based also with an eye on the future. A lot of interest in the 
tech industry in the Hudson Valley and New York, down on Long 
Island as well, and in the Rochester region where you have a 
lot of displaced folks from the old Eastman Kodak days, and the 
Binghamton area as well. So in that regard, we have given them 
data basically showing what those jobs in those industries 
ought to be versus what exist currently and then they can again 
develop curriculum to help maybe bridge that gap.
    Ms. DAVIDS. Thank you.
    I would like to actually follow up on a piece of testimony 
that you provided, both written and then you mentioned it, Mr. 
Conroy. But I am actually going to go to Ms. Dietz about it 
because knowing that broadband access is something that--a lot 
of spend quite a bit of time talking about broadband access--
knowing that there are a lot of people, both urban, rural, and 
suburban, who do not have access to broadband, I am wondering, 
Ms. Dietz, if you can speak a little bit to the ways you are 
seeing people accessing areas, whether it is at libraries. 
Maybe it is at small business development centers, accessing 
online materials knowing that online is the direction that the 
census is going.
    Ms. DIETZ. We are very rural, also. And so I do find many, 
many, many people that do not have that internet access, and I 
am always surprised at it because we only have the two major 
cities in Oklahoma.
    I would say that many of the rural are not accessing it. 
They are not finding those places because the library is too 
far or they are not going to the library to use it so they 
just--we do have lots of people that are trying to submit 
information to us through the mail or bring it in and it is 
handwritten. So that is a definite problem. I have not 
experienced people coming to an SBDC for that access. So 
whether they are going to the local libraries, maybe, but it is 
a definite problem in Oklahoma.
    Ms. DAVIDS. Okay. Yeah. And then could you talk a little 
bit more, Mr. Conroy, about the ways that you are letting 
people know that you are going to be able to offer a place for 
people to perform, respond to the census.
    Mr. CONROY. Well, that was in reference to a document that 
the ALA, the American Library Association put out. In my 
testimony that I did not get to was an example of a case study 
where we had a client in the upstate corner of New York, very 
mountains region also populated by the Akwesasne Indian 
reservation. This is a very poor part of the state and this man 
had an opportunity to submit a proposal to a New York State 
program for expanding broadband access into these types of 
regions. And he had a wealth of data at his disposal. You can 
all read it. I do not want to reiterate what it is about. But 
it was a great success. It was an example of using our research 
capabilities combined with Census data, combined with an 
opportunity offered by the State of New York, and this man 
parlayed all three of those and has gotten a substantial amount 
of funding to maybe open some doors for people in that part of 
the state. That is the kind of stuff that we are trying to 
engage in.
    Ms. DAVIDS. Thank you.
    Mr. CONROY. Knowing that there are pockets around New York 
State that are very rural, very farm-like. And like Ms. Dietz 
says, they are falling further and further behind.
    Ms. DAVIDS. Thank you. And thank you for all of your 
testimony and your time today.
    I yield back.
    Chairman KIM. Thank you.
    We are going to turn it over now to my colleague, 
Congressman Stauber. Over to you for 5 minutes.
    Mr. STAUBER. Thank you very much.
    We talk about the census. It is critically important.
    So Minnesota's 8th Congressional District is mostly rural. 
And Mr. Weinhagen, you come from the great state of Minnesota 
in the Minneapolis-St. Paul area. And so I just want to share a 
story with you, all four of you.
    A woman came to me and said in her mind how important the 
census will be. She said her 90-year-old father who still lives 
on the farm deserves to be counted. And so what are some of the 
ideas you think we need to do, put forth, to make sure rural 
America, that that census gets out of the metro area to make 
sure that we have the correct census in the outskirts, rural 
America, rural Minnesota, to ensure that those small businesses 
that want to invest understand and agree with the data that the 
census is going to put forth? So some of the ideas, Mr. 
Weinhagen, I will start with you and then we will go to the 
other panelists, because it is critically important that we 
keep our small businesses in rural America.
    Mr. WEINHAGEN. Mr. Stauber, you are absolutely right. And 
this will be the most technologically advanced census of all 
time. And rightfully so. As technology advances, we should be 
adopting and adapting to that. But it also does come with 
challenges. And one of the things that we hear from Greater 
Minnesota every single day is that access to broadband is a 
challenge. And as we think about the way that this data is 
going to be collected and making sure that a 90-year-old 
grandfather is counted, we are going to need to use some 
different interventions. Whether things that we are thinking 
about with our work on the Statewide Complete Count Committee 
is just that, thinking about how are we going to go out into 
every corner of the state to make sure we collect this 
information and provide the technology necessary to do so?
    So some of the specific strategies involve, you know, 
working with local communities and local cities to provide pop-
up type resources in grocery stores, in libraries, all across 
communities, meeting people where they are at. So think mobile 
hotspots that are activating a bank of computers so that folks 
have the opportunity to input their data into the census. We 
are going to have to be much more intentional about how we 
collect some of this data, and it is going to be acutely felt 
in greater parts of our Nation.
    Mr. STAUBER. I appreciate those comments. It is so 
important that they are counted.
    Other panelists? Mr. Conroy?
    Mr. CONROY. It is speculative on my part. I work with a man 
who has participated in the New York State Data Center, which 
is a collective of people within the state government who have 
a great interest in the Census. And is much more knowledgeable 
in these areas. But I think one of the other great obstacles is 
to be very transparent in terms of what the Census is and what 
it can provide. Otherwise, I think you are dealing with a lot 
of people who may be deeply suspicious as to why someone is 
surveying them at all. And absent any kind of real clear effort 
to say this is why it matters, I think you are going to have a 
lot of difficulty in getting feedback from people because of 
that.
    Mr. STAUBER. And do you know if the census takers take an 
oath that the information that they gather is private and 
confidential?
    Mr. CONROY. I do not know. I would be surprised if they did 
not. And I would be surprised if they did not get this kind of 
training when they go door to door and they are going to meet 
with a lot of less than enthusiastic people. You are going to 
get other people who might be like this 90-year-old man who 
will be very eager to participate. I think it would start 
literally at the grassroots level just to get the word out.
    Mr. STAUBER. And I think in Minnesota that is what we are 
doing. We are starting that a year and a half ahead to get the 
message out and the importance of the accurate census.
    Mr. Parker?
    Mr. PARKER. Yes. I very much agree. And I agree with Mr. 
Conroy. The message is really important for people to 
understand the value this brings back to the community, back to 
them. And without that message there are many communities. I 
think of the population, our constituency that we serve through 
the soup kitchen. There are many people who are very suspicious 
because they simply do not understand what this information can 
do and will do. And we need to have all of the data counted for 
it to be accurate. Otherwise, it is not valid information. So 
thank you.
    Mr. STAUBER. Ms. Dietz?
    Ms. DIETZ. I concur with all of them.
    Mr. STAUBER. Short winded.
    Well, I want to thank you all for coming and sharing your 
expertise. It is important that we recognize that small 
businesses are the engine of our economy and we are all on the 
front lines. We all want our small businesses to succeed. As a 
small business owner myself, I totally understand it.
    Mr. Chair, I yield back.
    Chairman KIM. Great. I appreciate it from the gentleman 
from Minnesota.
    And now turning it over to the gentleman from New York. 
Over to you.
    Mr. ESPAILLAT. Thank you, Mr. Chairman, Ranking Member. 
Thank you, Mr. Chairman.
    I guess we are here because our Nation has a chronic 
problem with accurate census in general, not just for this one. 
For many decades we have faced these hurdles of our inability 
to count ourselves in a precise and accurate way. And the 
implications that that brings to the table, in this case, to 
small businesses. I represent a very diverse district. It has 
Harlem. So like the capital of the African-American diaspora 
and the country, East Harlem with just the launching pad of the 
Latino experience in the northeast, a very immigrant community 
in Northern Manhattan, Washington Heights, Inwood, and then the 
Bronx. And so small businesses there have these very particular 
niches that require for them to understand their customer base. 
And so my questions are for two sort of like silos.
    The first one is, for minority women-owned businesses that 
always are pushing to get their place at the table, how do you 
feel that an inaccurate census will impact the ability of 
minority and women-owned businesses to get greater opportunity 
and a greater piece of the pie? How does this impact this very 
particular population that is always pushing? New York State, 
you know, the efforts that we made to include broader 
participation by minority and women-owned business. Anybody?
    Mr. PARKER. I would think access to funding and having 
funds that are available based upon an accurate census in the 
community for SBA loans for funds that are available for small 
business loans and banking information. So I think access to 
credit and access to funding is going to be critically 
important particularly for new businesses and for small 
businesses.
    Mr. ESPAILLAT. And for startup businesses, if I was to 
start up a new supermarket, I would like to have a feasibility 
study, an assessment of my customer base. I want to know if I 
have to have kosher food there. I want to know what kind of 
products I need to have there depending on the population that 
I want to serve. And obviously, the census continues to be a 
document that has trouble measuring that. So how would it 
impact our lack of very specific detail information about 
demographics, race, ethnicity? Income levels, too; right? I 
want to make sure that I am addressing the needs of higher 
income populations or lower income populations, you know, food 
stamps or that investment banker that may want to have a Whole 
Foods in their neighborhood but it is not there and now I want 
to put this new supermarket and I want to be able to compete. 
How does this census problem that we have in measuring 
accurately the population impact the startup of businesses? 
Anybody?
    Mr. PARKER. I can give you a good example. In the city of 
Trenton, it is considered to be a food desert.
    Mr. ESPAILLAT. Correct.
    Mr. PARKER. There are no major supermarkets in the city of 
Trenton. A resident who does not have a car might have to 
travel 2 hours by bus or public transport to get to a 
supermarket. So the community relies on small businesses. They 
rely on the bodegas. They rely on the local barber shop, the 
local, you know, people who are operating in the community. And 
so theoretically, information, data information on that 
community would help a Whole Foods, for example, make a 
decision that here is an opportunity that could be taken 
advantage of.
    Mr. ESPAILLAT. And since we have this problem of accurate 
data and demographics, are there any other tools that small 
businesses could go to to get this important demographic data 
and income data? Is there any other measuring mechanism out 
there besides the census that they can go to and make an 
assessment as to whether or not they want to start up a 
business in a particular community?
    Mr. CONROY. The only things I can think of would be, 
depending on the industry that it is in, for instance, the 
National Restaurant Association is the largest trade group for 
the restaurant industry.
    Mr. ESPAILLAT. Right.
    Mr. CONROY. And they put out----
    Mr. ESPAILLAT. They have information?
    Mr. CONROY.--an industry operations report. It is basically 
a survey of their members. And you can get information on menu, 
trends, pricing, average check size, things of that nature. 
Things that are not captured in a census. But it is like a 
census in that it is a survey of a closed community.
    Mr. ESPAILLAT. I know in New York City, and I will close it 
out, Mr. Chairman. I know in New York City it also goes to, for 
example, school data. They are able to see, sometimes school 
data is a little more accurate than even the census data 
because a parent goes to a school and shares his or her 
information.
    Thank you, Mr. Chairman. I yield.
    Chairman KIM. Thank you. The gentleman yields back.
    I want to turn it back over to the Ranking Member for some 
follow-up here and some remarks.
    Mr. HERN. Thank you, Mr. Chairman.
    Do any of you know if the census data is used in 
collaboration with like the SBA, other Federal agencies, any 
cross-pollination there of any of that data, do you know?
    Mr. CONROY. The only thing that I can think of is there is 
a Consumer Expenditure Survey that they undertake with the 
Department of Labor. I do not know if SBA is involved in 
actually producing any data. Certainly, they use it.
    Mr. HERN. Part of the problem is being a business owner, is 
that we get surveyed by all these different agencies for many 
times the same, similar information. And I think that is part 
of the problem. Some of you may have read my background. I have 
been with McDonald's for 35 years and to your point, NRA, 
National Restaurant Association, McDonald's everybody polls 
everybody for a lot of information and it seems like you sort 
of every week have got some sort of a survey you are filling 
out and you are just kind of wondering after the day, can some 
of you not get together at some point higher than us and just 
send us one survey and share it somewhere? Because it is pretty 
onerous.
    So I really appreciate your testimony. One of the things I 
would like to ask you all, and the Chairman and I were just 
talking about this, you all deal directly with small business 
development in some sort. And you see a lot of barriers and 
they have got to be immensely frustrating. My colleague from 
Kansas talked about broadband in rural areas. We have had 
hearings on that. But as you go through, we would ask, you now 
have some ownership in this. You know who to talk to as Ms. 
Dietz said. We would love to get your feedback on other things 
that you see as barriers for people with ideas wanting to start 
small businesses and put Americans to work. And so as you see 
those barriers, we would love, each one of you have contacts 
with some member on this panel, whether it is me, the Chairman, 
or other members that are in your district. We would love to 
get that feedback directly from you because the purpose of this 
Committee is to hear from people who are either job creators 
themselves or helping people create jobs in the first place or 
grow their businesses. And we want you to know if people were 
to walk in here, I would assume you, and I have said this often 
and I will say it again, if people were to walk in here, it 
would be very difficult, if not impossible, to know which one 
of you are representing the Democrats and the Republicans 
because when you are in small business D and R does not mater 
any more. You are in survivability mode. It is, how do you 
grow? It is about taking care of your people, your customers. 
And I really appreciate that part of this Committee.
    So I just want to leave it on that note. Please, we would 
love your feedback not only today as we have but going forward 
as well. Thank you all for being here.
    Chairman KIM. Thank you, Mr. Hern, for your comments there. 
I cannot agree with you more, just the importance and what we 
are trying to do on this Committee, just really making sure 
that we are approaching this, cutting out the partisanship and 
just doing what we can to deliver for small businesses.
    But also for our communities on top of that. And that is 
one point that I have just kind of been of percolating in my 
mind as I have been hearing from all of you. While we are 
thinking about this in terms of the impact on small businesses 
and their abilities to grow, another side of it is the ability 
for our communities, for Burlington County and Ocean County in 
my area to be able to attract businesses into. You know, be 
able to use that census information to be able to make a case 
for why this is an attractive place for small businesses when 
we think about our Main Street down in, you know, when we think 
about Farnsworth down in Bordentown. When we are thinking about 
Route 130 or Route 9 in Ocean. These are places where we are 
thinking about how do we bring in more and more businesses? And 
the census information is often what we are doing with the 
chambers and others to be able to make as strong of a case. So, 
you know, that is sort of another angle that I just want to 
continue to build into and figure out what it is that we can 
do.
    I cannot thank you enough for taking the time to come on 
out here. I know it was a trip for each and every one of you. 
It means a lot to us as we are trying to make sure we are 
raising up your voices because your voices are the ones that 
matter so much. And we know it is so vitally important that for 
our Nation's businesses as we have heard today to have that 
accuracy with the census in 2020 and beyond. This data is 
underpinning so many important decisions that are being made in 
terms of where to locate or hire, whether to expand. And those 
of us here in Congress need to do what we can to ensure that 
the census is accurate. Not only preserve the integrity of our 
democracy but also to help small businesses grow and expand.
    I want to just bring this to a close, so I ask unanimous 
consent that members have 5 legislative days to submit 
statements and supporting materials for the record.
    And without objection, so ordered.
    And if there is no further business to come before the 
Committee, we are adjourned. Thank you so much. Take care.
    [Whereupon, at 11:08 a.m., the subcommittee was adjourned.]
                            
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
